     FINANCIAL REPORTING OF DEPARTMENT 97-FUNDED
           PROPERTY, PLANT, AND EQUIPMENT


Report No. D-2001-039               January 31, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officer
DFAS                  Defense Finance and Accounting Service
PP&E                  Property, Plant, and Equipment
                       Office of the Inspector General, DoD
Report No. D-2001-039                                                  January 31, 2001
  (Project No. D2000FA-0043.003; formerly Project No. 0FA-2018.003)

               Financial Reporting of Department 97-Funded
                     Property, Plant, and Equipment

                                 Executive Summary

Introduction. This audit is the final part of the audit on “Compilation of the FY 1999
Financial Statements for Other Defense Organizations-General Fund” and in support of
our audit of the FY 2000 Financial Statement. The Chief Financial Officers Act of
1990 requires DoD to prepare consolidated financial statements. The DoD
Agency-wide Financial Statements include financial statements for a reporting entity
entitled “Other Defense Organizations-General Fund.” The entity represents a
consolidation of financial information from various Defense organizations and funds
that use the Department 97 symbol. The FY 1999 Financial Statements for Other
Defense Organizations-General Fund as prepared by Defense Finance and Accounting
Service (DFAS) reported $6.7 billion in assets. Of the $6.7 billion in assets, $2 billion
were acquired with Department 97 funds allotted to the Military Departments.

Objectives. Our objective was to determine whether Department 97-funded property,
plant, and equipment should be reported on the Military Department or Other Defense
Organizations Financial Statements when the funds are allotted to the Military
Departments. We also reviewed the coordination procedures at the accounting offices
supporting specific Other Defense Organizations to determine how those offices were
recording and reporting Department 97-funded property, plant, and equipment.

Results. The DFAS Indianapolis Center, Chief Financial Officer Team, did not
accurately report Department 97-funded property, plant, and equipment on the
Financial Statements of the Other Defense Organizations. As a result, assets on the
Financial Statements of the Other Defense Organizations–General Fund were materially
overstated by $1.1 billion, the Financial Statements of the Navy-General Fund were
understated by $222 million, and the DoD Agency-wide Financial Statements were
overstated by $839 million. Until corrected, these misstatements will be reported in
FY 2000 and future year’s financial statements. For details of the audit results, see the
Finding section of the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) provide clarifying guidance about how to transfer property, plant, and
equipment and record differences between Department 97 and Military Department
accounting classifications. We recommend that the Director, Defense Finance and
Accounting Service, Sustaining Forces, Indianapolis, and the Defense Finance and
Accounting Service, Cleveland, obtain information to confirm and report the users for
medical equipment. We recommend that the Director, Defense Finance and
Accounting Service, St. Louis, establish standard operating procedures for reporting
Department 97-funded property, plant, and equipment.
Management Comments. A copy of the Under Secretary of Defense (Comptroller)
comments was received too late to be included in the final report. However, the Under
Secretary of Defense (Comptroller) offered instead an alternative corrective action.
The Director for Accounting, Defense Finance and Accounting Service concurred with
the recommendations. The Defense Finance and Accounting Service, Cleveland
reviewed the Preponderant Users Regulation with the Navy Office of Financial
Operations and agreed to report the Bureau of Medicine and Surgery Property, Plant,
and Equipment on the Navy General Fund Financial Statements. The Director also
stated that Defense Finance and Accounting Service St. Louis would prepare standard
operating procedures to improve coordination with clients. Although not required to
comment, the Director for Resource Management, Office of the Assistant Secretary of
Defense Health Affairs agreed with the finding and each recommendation. See the
Finding section for a discussion of the management comments and the Management
Comments section for the complete text of the management comments.

Audit Response. The alternative action proposed by the Under Secretary of Defense
(Comptroller) was responsive to the recommendation. Since the draft report was
issued, the policy of preponderant users of property has come under review.
Accordingly, our recommendation to the Defense Finance and Accounting Service
concerning a determination of preponderant use should be held in abeyance pending the
results of the policy review.




                                          ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          1

Finding
     Reporting of Department 97-Funded Property, Plant, and Equipment    2

Appendixes
     A. Audit Process
         Scope                                                           7
         Methodology                                                     8
         Prior Coverage                                                  8
     B. Report Distribution                                              9

Management Comments
     Defense Finance and Accounting Service                             11
     Office of the Assistant Secretary of Defense Health Affairs        13
Background
           The Under Secretary of Defense (Comptroller) allocated and allotted
           $53.1 billion of Department 97 funds to the Other Defense Organizations and
           the Military Departments, in FY 1999.

           Other Defense Organizations. The DOD Agency-wide Financial Statements
           include two columns for Other Defense Organizations: Other Defense
           Organizations-Working Capital Fund column, which includes the financial
           activity of working capital funds not associated with the Military Departments,
           and Other Defense Organizations-General Fund column, which includes the
           financial activity of various Defense organizations and funds using the Treasury
           Index 97 symbol. The corresponding DoD department code* is 97
           (Department 97). In this report, Other Defense Organizations refers to the
           Other Defense Organizations-General Fund reporting entity.

           Defense Finance and Accounting Service (DFAS) Responsibilities. DoD
           Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 6B,
           October 1999, requires the DFAS to ensure that the preparation of financial
           reports is consistent, timely, and auditable, and that controls are in place to
           ensure the accuracy of the reports. The Chief Financial Officers Act of 1990
           reporting responsibilities for the Other Defense Organizations are under the
           purview of the DFAS Center for Sustaining Forces, Indianapolis, Indiana,
           (DFAS Indianapolis Center).

Objectives
           The primary objective of the audit was to determine whether
           Department 97-funded property, plant, and equipment (PP&E) should have been
           reported on the Military Department or Other Defense Organizations Financial
           Statements when the funds were allotted to the Military Departments. We also
           reviewed the coordination procedures at the accounting offices supporting
           specific Other Defense Organizations to determine how those offices were
           recording and reporting Department 97-funded PP&E. Appendix A discusses
           the audit scope and methodology.




*
    A department code is a two–digit code that identifies the Military Department or Government entity
    receiving appropriations.




                                                      1
           Reporting of Department 97-Funded
             Property, Plant, and Equipment
           The DFAS Indianapolis Center, Chief Financial Officer Team, did not
           accurately report Department 97-funded PP&E on the financial
           statements of the Other Defense Organizations. The inaccurate reporting
           occurred for the following reasons:

                  •   DFAS St. Louis Operating Location officials were not aware
                      of DoD financial management regulations and did not have
                      standard operating procedures related to reporting PP&E.

                  •   The DFAS Indianapolis and Cleveland Centers improperly
                      reported $1.1 billion Department 97-funded medical
                      equipment.

                  •   The DFAS Indianapolis Center over reported $839 million of
                      the $1.1 billion of Department 97-funded medical equipment
                      on the Other Defense Organizations-General Fund Financial
                      Statements.

                  •   The Under Secretary of Defense (Comptroller) did not
                      provide adequate guidance to transfer Department 97-funded
                      PP&E to the general ledger of the Military Departments based
                      on the preponderance of use policy.

           As a result, the Financial Statements for the Other Defense
           Organizations were overstated by $1.1 billion, the FY 1999 financial
           statements for the Navy-General Fund were understated by $222 million,
           and the DoD Agency-wide Financial Statements were overstated by
           $839 million, respectively. If not corrected, the Financial Statements for
           the Other Defense Organizations, the Army, and the Navy-General Fund
           will be misstated in FY 2000 and beyond.

DFAS Indianapolis Center
    The DFAS Indianapolis Center, Chief Financial Officer (CFO) Team, compiles
    financial data and prepares the Other Defense Organizations financial
    statements. The financial data is included in about 900 separate trial balances
    generated by accounting offices that support the Other Defense Organizations.
    Of $6.7 billion of PP&E reported in the Financial Statements of the Other
    Defense Organizations-General Fund, approximately $2 billion represented
    PP&E acquired with Department 97 funds allocated and allotted to the Military
    Departments.

    The table on the next page summarizes the $1.8 billion of Department 97-funded
    PP&E. Of the approximately $1.8 billion, $1.1 billion is medical PP&E. Of the
    $1.1 billion, $839 million was over reported on the Other Defense
    Organizations-General Fund Financial Statements, and $222 million should have


                                        2
    been reported on the Navy-General Fund Financial Statements. The remaining
    $.8 billion is general PP&E that should have been reported on the
    Army-General Fund Financial Statements but was reported as Ballistic Missile
    Defense Organization PP&E on the Other Defense Organizations Financial
    Statements.

                             Department 97-Funded PP&E
                                      (millions)
                                      Suballocation and Suballotment Holders

            Type of assets           Army        Navy     Air Force        Total

     General property, plant, and
       equipment                     $ 765           0          0        $ 765

     Medical property, plant, and
       equipment                       839        $222          0         1,061

          Total                      $1,604       $222          0        $1,826


Other General Property, Plant, and Equipment
    The DFAS St. Louis trial balances for the Army Space and Missile Defense
    Command contained general PP&E valued at $765 million but did not include
    explanatory footnotes needed for the DFAS Indianapolis Center CFO Team to
    report PP&E on the financial statements of preponderant users and to disclose
    unreliable values.

    Trial Balance for the Army Space and Missile Defense Command. The
    DFAS St. Louis did not provide sufficient and reliable information for about
    $765 million of Department 97-funded PP&E in the Army Space and Missile
    Defense Command trial balance. The information was not sufficient because
    footnotes explaining that the Army used $765 million of Department 97-funded
    PP&E to support Ballistic Missile Defense Organization programs were not
    included. The trial balance also did not identify the Contractor Property
    Management System as the source of the values for $544 million of the
    $765 million of Department 97-funded PP&E. The reliability of values in the
    Contractor Property Management System is discussed in the form and content
    volume of the DoD financial management regulation. Without explanatory
    footnotes, the DFAS Indianapolis CFO Team reported the PP&E on the
    Financial Statements of the Other Defense Organizations based on funding
    source instead of preponderance of use and did not disclose that $544 million of
    the $765 million reported was unreliable.

    DFAS St. Louis reporting officials stated they were not aware of the DoD
    financial management regulation, did not have standard operating procedures for
    reporting PP&E, and that Army Space and Missile Defense Command property
    officials were responsible for the financial reporting of PP&E. However,


                                        3
    DFAS accounting and reporting officials are responsible for being aware of
    DoD financial management regulations, establishing standard operating
    procedures for reporting PP&E in financial records, and having enough
    knowledge about clients to present sufficient and reliable financial information
    in organizational trial balances.

Medical Equipment
    DFAS Indianapolis officials improperly reported $1.1 billion of
    Department 97-funded medical equipment on the FY 1999 Financial Statements
    of the Other Defense Organizations–General Fund. Of the $1.1 billion,
    $839 million was also reported on the FY 1999 Financial Statements of the
    Other Defense Organizations-General Fund, and $222 million should have been
    reported on the FY 1999 Financial Statements of the Navy–General Fund. The
    memorandum titled “Revised Policy Pertaining to General Property Plant and
    Equipment,” dated August 5, 1999, from the Under Secretary of Defense
    (Comptroller) specifically states that the Military Departments should report
    medical facilities and equipment, but DFAS Indianapolis officials did not apply
    the requirement when compiling the FY 1999 Financial Statements of the Other
    Defense Organizations-General Fund. Only DFAS Denver officials properly
    reported Department 97-funded medical equipment when compiling the Air
    Force financial statements. When DFAS Cleveland officials compiled the Navy
    financial statements, they submitted Department 97-funded medical equipment
    to DFAS Indianapolis based on the funding source.

    DFAS Indianapolis officials stated that they were aware of the preponderance of
    use policy, that inclusion of the medical equipment on the Other Defense
    Organizations FY 1999 Financial Statements was an oversight, and that they
    would report medical equipment correctly in FY 2000. However, reporting the
    medical equipment on the Army, Navy, and Air Force Financial Statements in
    FY 2000 without transferring the equipment out of the Department 97 general
    ledgers will misstate the Other Defense Organizations and the Departments of
    the Army, Navy, and Air Force net position.

Transferring Property, Plant, and Equipment
    None of the DFAS locations transferred Department 97-funded PP&E from the
    Department 97 general ledgers to the general ledgers of the preponderant users.
    We verified the lack of transfers through examination of $1.1 billion of medical
    PP&E submitted by the Departments of the Army and Navy under
    Department 97 and reported on the FY 1999 Other Defense Organizations
    Financial Statements. The August 5, 1999, memorandum from the Under
    Secretary of Defense (Comptroller) clarified the DoD Regulation 7000.14R,
    volume 4, chapter 6, “Property, Plant and Equipment,” stating that DoD
    activities that meet the criteria of the preponderant users should report general
    PP&E in their financial records. The August 5, 1999, memorandum did not
    address how DFAS should record journal entries to transfer PP&E from the
    activity that financed the PP&E to the using activity’s financial statements in
    accordance with the preponderance of use policy.



                                        4
    Reporting Department-97 funded medical PP&E on the Military Departments
    (preponderant users) financial statements without accounting entries to transfer
    PP&E out of Department 97 and into the preponderant user’s general ledgers
    will misstate both the Army and Navy General-Fund and Other Defense
    Organizations Statement of Changes of Net Position by $1.1 billion.

    DFAS depends on the property book officer to provide information verifying
    that equipment purchased with Department 97 funds should be transferred to the
    preponderant user’s financial statements. However, there is no specific
    accounting guidance regarding the transfer of Department 97-funded PP&E to
    the preponderant user’s financial statements. Our discussion with DFAS
    accounting officials showed that there was concern over the lack of accounting
    guidance regarding PP&E transfers. The Under Secretary of Defense
    (Comptroller) should clarify the guidance in the DoD Regulation
    7000.14R, volume 4, chapter 6, “Property Plant and Equipment,” for
    identifying the information DFAS needs to record the proper journal entry when
    transferring PP&E to the preponderant user’s financial statements.
    Additionally, as a provider of accounting services to Military Departments and
    Defense agencies, DFAS should explicitly identify the data elements needed to
    properly record and report PP&E in the accounting records.

Recommendations
          1. We recommend that the Under Secretary of Defense
    (Comptroller), provide clarifying guidance in the DoD Regulation
    7000.14R, volume 4, chapter 6, “Property, Plant and Equipment,” about
    how to transfer property, plant, and equipment between Department 97
    and Military Department accounting classifications.

    Management Comments Required. A copy of the Under Secretary of Defense
    (Comptroller) comments to the draft of this report was received too late to be
    included in the final report. The Under Secretary offered instead an alternative
    that DFAS establish appropriate procedures to ensure that Department 97 funds,
    used to acquire medical equipment, are excluded from Other Defense
    Organizations trial balances and properly reflected on the accounts of the
    Military Departments.

    Audit Response. The alternative action to have DFAS develop procedures to
    accurately account for Department 97 funds is responsive to our
    recommendation.

          2. We recommend that the Director, Defense Finance and
    Accounting Service, Sustaining Forces, Indianapolis, and the Defense
    Finance and Accounting Service, Cleveland, obtain information from the
    property book officer to confirm the preponderant users for medical
    equipment to report on the preponderant user’s financial statements.

           3. We recommend that the Director, Defense Finance and
    Accounting Service, St. Louis, establish standard operating procedures to
    coordinate with clients and obtain sufficient and reliable information for
    reporting Department 97-funded property, plant, and equipment.


                                        5
Management Comments. The Director for Accounting, Defense Finance and
Accounting Service concurred with the recommendations. The Defense Finance
and Accounting Service, Cleveland reviewed the Preponderant Users Regulation
with the Navy Office of Financial Operations. According to the Defense
Finance and Accounting Service, the Navy Office of Financial Operations
agreed to report the Bureau of Medicine and Surgery Property, Plant, and
Equipment on the Navy General Fund Financial Statements. The Director for
Accounting also stated that Defense Finance and Accounting Service, St. Louis
would prepare standard operating procedures by January 31, 2001 to improve
coordination with clients. The Director for Resource Management, Office of
the Assistant Secretary of Defense Health Affairs also commented and agreed
with the finding and each recommendation. The Under Secretary of Defense
(Comptroller) provided comments (too late for inclusion in this report) which
disagreed with the recommendation, stating that the Defense Finance and
Accounting Service did not need to obtain information from property book
officers to confirm preponderant use of medical equipment.

Audit Response. We encourage the Defense Finance and Accounting Service
efforts to develop operating procedures to improve coordination with its clients.
Since the draft report was issued, the policy of preponderant use relative to
plant, property and equipment came under review. Accordingly, our
recommendation should be held in abeyance pending the results of the policy
review.




                                    6
Appendix A. Audit Process

Scope
    Financial Data Reviewed. We reviewed the processes used to record and
    report $3.2 billion of Department 97-funded PP&E constructed or acquired by
    the Military Departments. Specifically, we reviewed the DFAS Indianapolis
    Center database supporting the PP&E line item of the FY 1999 Balance Sheet of
    the Other Defense Organizations-General Fund. We verified that PP&E valued
    at $1.8 billion existed in the DFAS St. Louis and San Antonio general ledger
    trial balances dated September 30, 1999. We reviewed Brook Army Medical
    Center property certifications and property records for Department 97-funded
    PP&E valued at $167 million and $1.6 million, respectively. We also reviewed
    Army Space and Missile Defense Command property certifications for PP&E
    valued at $1.6 billion and property records for Department 97-funded PP&E
    valued at $5 million.

    Amounts Reported in the FY 1999 Financial Statements. The FY 1999
    Financial Statements of the Other Defense Organizations-General Fund showed
    total assets of $44 billion, total budgetary authority of $53.1 billion, and net cost
    of operations of $84.4 billion.

    Scope Limitation. We did not review the DFAS management control program
    or DFAS internal controls over reporting of PP&E because they were
    previously reviewed and reported on in Inspector General, DoD,
    Report No. D-2000-103, “Internal Controls and Compliance With Laws and
    Regulations for the FY 1999 Financial Statements for Other Defense
    Organizations-General Fund,” March 16, 2000.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following objectives and goals, subordinate performance
    goals, and performance measures:

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.).




                                          7
           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
                                                    −DoD-2.5.2.).
               opinions on financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           Financial Management Functional Area. Objective: Reengineer DoD
           business practices. Goal: Clarify financial management policies. (FM-
           4.1) Objective: Strengthen internal controls. Goal: Improve
           compliance with the Federal Managers Financial Improvement Act.
           (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Auditing Standards. This financial related audit was performed in accordance
    with auditing standards issued by the Comptroller General of the United States,
    as implemented by the Inspector General, DoD, based on the objectives of the
    audit and the limitations to the scope described in this appendix.

    Computer-Processed Data. We used DFAS computer-processed data in this
    audit; however, we did not confirm reliability of the data because the accounting
    systems used to prepare the Financial Statements for Other Defense
    Organizations had serious limitations. The lack of reliable financial information
    was described as a material management control deficiency in the FY 1999 DoD
    Annual Statements of Assurance. The lack of reliable information did not
    adversely affect our analysis.

    Audit Period, Location, and Contacts. We performed this financial-related
    audit from April through September 2000 at the DFAS Indianapolis, Cleveland,
    and Denver. We also visited and contacted the Army Corps of Engineers,
    DFAS St. Louis and San Antonio locations, Brook Army Medical Center, and
    the Army Space and Missile Defense Command. Further details are available
    on request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial reporting of PP&E. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports.




                                        8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
     Director for Accounting Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Commander, Ballistic Missile Defense Organization
Director, Defense Finance and Accounting Service
Director, Tricare Management Activity
Director, Washington Headquarters Services

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       10
Defense Finance and Accounting Service
Comments




                   11
12
Office of the Assistant Secretary of Defense
Health Affairs Comments




                    13
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to this report, are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Ronald W. Hodges
Robert P. Goldberg
Yalonda N. Blizzard
